HHS/OIG-Audit--"Payment Edits for Outpatient Psychiatric Services at theMassachusetts Medicare Part B Carrier"(A-01-98-00500)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Payment Edits for Outpatient Psychiatric Services at the Massachusetts Medicare Part B Carrier" (A-01-98-00500)
August 1998
Complete
Text of Report is available in PDF format (82 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether the Massachusetts Blue Shield correctly applied the outpatient psychiatric
payment limitation of 62.5 percent to psychiatric physician services performed in an outpatient setting. Our review covered
services performed in Calendar Year (CY) 1996.
Our review of claims processed for beneficiaries residing in the four state area of Maine, Massachusetts, New Hampshire
and Vermont in CY 1996, identified approximately $2.7 million in payments to professional psychiatric providers for Current
Procedural Terminology (CPT) evaluation and management (E&M) services for the treatment of mental, psychoneurotic,
and personality disorders in an outpatient setting. However, contrary to Medicare regulations, these services were reimbursed
at 80 percent of the Medicare allowed amount without first applying the outpatient mental health payment limitation of
62.5 percent. As a result of not applying the payment limitation, we estimate that Medicare overpaid its share by approximately
$1 million in CY 1996 for outpatient mental health services.
To prevent additional overpayments from occurring we met with the National Heritage Insurance Company (NHIC) and recommended
that it adjust the outpatient psychiatric payment edit to include E&M procedure codes used by psychiatric providers
for services rendered to beneficiaries with a psychiatric diagnosis code. The NHIC generally concurred with our recommendation
and as of April 1, 1998 began using the new edit to correct the payment errors. We are further recommending that the NHIC:
initiate recovery of the overpayments in accordance with HCFA guidelines and
consider expanding recovery action to include overpayments subsequent to our review period.
The NHIC generally concurs with our recommendations in response to our draft report. The NHIC, however, will further study
the provider usage of certain procedure codes to determine if they should be subject to the new edit.